                             Office of the Inspector General

July 6, 1999

John R. Dyer

Principal Deputy Commissioner

 of Social Security


Acting Inspector General



The President’s Council on Integrity and Efficiency Review of Non-Tax Delinquent Debt



The attached final report presents the results of our audit, The President’s Council on

Integrity and Efficiency Review of Non-Tax Delinquent Debt (A-15-99-52002). The

objective of our audit was to determine the Social Security Administration’s compliance

with the Debt Collection Improvement Act of 1996.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide your comments

within the next 60 days. If you wish to discuss the final report, please call me or have

your staff contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at

(410) 965-9700.





                                                  James G. Huse, Jr.

Attachment
    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    THE PRESIDENT’S COUNCIL

       ON INTEGRITY AND

 EFFICIENCY REVIEW OF NON-TAX

       DELINQUENT DEBT


      July 1999   A-15-99-52002




AUDIT REPORT

                             Office of the Inspector General


John R. Dyer

Principal Deputy Commissioner

 of Social Security


Acting Inspector General



The President’s Council on Integrity and Efficiency Review of Non-Tax Delinquent Debt



The Social Security Administration’s (SSA) Office of the Inspector General (OIG)

conducted an audit of SSA’s compliance with the Debt Collection Improvement Act of

1996 (DCIA). This audit, coordinated by the Department of the Treasury’s OIG,

(Treasury) is part of a governmentwide review of non-tax delinquent debt. Our report,

The President’s Council on Integrity and Efficiency Review of SSA’s Non-Tax

Delinquent Debt, as submitted to the Treasury OIG is attached.


Prior to this review, Treasury contracted with PricewaterhouseCoopers, LLP (PwC) to

perform an audit of non-tax delinquent debt. As a result of this audit, Treasury seeks to

determine the accuracy of delinquent debt amounts as reported by PwC and how

agencies are complying with the DCIA. Eighteen agencies, including SSA, participated

in this governmentwide audit of non-tax delinquent debt.


Our audit work concluded that SSA is working toward meeting the objectives of the

DCIA which are to (1) maximize collections of delinquent debts owed to the

Government and (2) reduce losses arising from inadequate debt management

activities. Although progress has been achieved, improvements can be made

regarding SSA’s implementation of the DCIA. To ensure that delinquent debt and the

associated risk of asset loss is continually minimized, we recommend that SSA:


      1.	 Improve the transfer of delinquent debts to Treasury’s Financial Management
          Service, and

      2. Incorporate the application of interest into its debt management program.
Page 2 – John R. Dyer

If you wish to discuss this final report, please call me or have your staff contact
Daniel R. Devlin, Acting Assistant Inspector General for Audit, at (410) 965-9700.




                                                 James G. Huse, Jr.

cc:

IOG/ES

IO Reading File

OA Reading File

Subject File

FNORDHOFF:pjk:06-15-99:dg/06/30//99

Report File Fnl99-52002



Attachment
ATTACHMENT

                                           ATTACHMENT




 SOCIAL SECURITY ADMINISTRATION



              OFFICE OF

       THE INSPECTOR GENERAL





PRESIDENT’S COUNCIL ON INTEGRITY

 AND EFFICIENCY REVIEW OF SSA’S

   NON-TAX DELINQUENT DEBT




                May 7, 1999





PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT

                                                                                                           ATTACHMENT

TABLE OF CONTENTS


OVERVIEW ............................................................................................................ 1


BACKGROUND ..................................................................................................... 1


OBJECTIVE, SCOPE AND METHODOLOGY....................................................... 3


AUDIT RESULTS ................................................................................................... 4


           FINDING 1 .................................................................................................... 4



           FINDING 2 .................................................................................................... 4



           FINDING 3 .................................................................................................... 5



CONCLUSION AND RECOMMENDATIONS ......................................................... 6


APPENDIX 1 .......................................................................................................... 7


APPENDIX 2 ........................................................................................................ 10





                    PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT

                                                                                        ATTACHMENT


Overview

         The Social Security Administration (SSA) Office of the Inspector General
         conducted an audit of the Social Security Administration’s compliance with the
         Debt Collection Improvement Act of 1996 (DCIA). This audit is part of a
         President’s Council on Integrity and Efficiency Governmentwide review of
         non-tax delinquent debt.

         SSA is working toward meeting the objectives put forth by the DCIA which are
         to (1) maximize collections of delinquent debts owed to the Government and
         (2) reduce losses arising from inadequate debt management activities.
         Although progress has been made, SSA can improve its implementation of
         DCIA. SSA should ensure applicable delinquent debt is transferred to the
         Department of Treasury for collection that will minimize the risk of asset loss. In
         addition, SSA should apply the use of interest in its debt management program.

Background

         Congress passed the DCIA in 1996, which amended the Debt Collection Act of
         1982. The DCIA gives Federal Government Departments and Agencies
         additional tools for collecting debt. The purpose of the DCIA is to maximize
         collection of delinquent debt owed to the Federal Government, and consolidate
         the debt collection function so that costs can be minimized. This Act should
         improve Government credit management by minimizing delinquency rates.

         DCIA designates the Department of the Treasury (Treasury) as the primary
         collector of delinquent debt for the entire Federal Government. Generally,
         debts delinquent 180 days or more should be referred to Treasury’s Financial
         Management Service (FMS) for additional collection efforts. FMS receives
         delinquent debt from Agencies and Departments, and attempts to collect the
         debts under Governmentwide cross-servicing1 and the Treasury Offset
         Program.

         Federal agencies, including SSA, are responsible for implementing the policies
         and procedures in the DCIA. Treasury contracted with
         PricewaterhouseCoopers, LLP (PWC) to perform an audit of non-tax delinquent
         debt. As a result of this audit, Treasury seeks to determine the accuracy of
         delinquent debt amounts as reported by PWC and how agencies are complying
1
  Cross-servicing arose from the DCIA requirement to refer delinquent debt over 180 days to Treasury.
Cross- servicing provides a variety of tools to collect debts including issuing demand letters to debtors,
negotiating repayment or compromise agreements, using credit bureau reporting and issuing of
Form 1099c.


             PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 1
                                                                                     ATTACHMENT

         with the DCIA. Eighteen agencies, including SSA, are taking part in this
         government-wide audit of non-tax delinquent debt.

         Debt owed to SSA results primarily from overpayments to beneficiaries, which
         often occurs because of untimely reporting of changes in beneficiary eligibility
         to SSA. In addition, a small portion of the debt is from overpayments to
         employees and contractors.

         SSA has established systems of debt management and collection. There are
         three major information systems tracking SSA’s debts. The Recovery of
                                                                      2               3
         Overpayment Accounting and Reporting system tracks Title II debts. Title XVI
         debts are tracked by the Overpayment Underpayment Process System. The
         External Collection Operation (ECO) system identifies debt that qualify for
         transfer to FMS, tracks debts sent to FMS and reimbursements received from
         FMS.

         SSA has a complex debt collection process. Recipients and beneficiaries who
         have received overpayments have extensive rights of review and appeal. By
         law, SSA cannot start collecting debts until the recipient or beneficiary has the
         opportunity to exercise these rights. Further, these individuals have the right to
         request a waiver of the debt. Reviews of waiver requests can take up to 2
         years to complete. If the waiver request is denied, the individual can appeal the
         decision to the Office of the Hearings and Appeals and then to Federal Courts.




2
  Title II represents the Old-Age, Survivors and Disability Insurance programs. These programs are
commonly referred to as Social Security and provide a comprehensive package of protection against
loss of earnings due to retirement, disability and death.
3
  Title XVI represents the Supplemental Security Income program. This program is a means-tested
program designed to provide or supplement the income of aged, blind or disabled individuals with limited
income and resources.


            PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 2
                                                                      ATTACHMENT

Objective, Scope and Methodology

     The objective of our audit was to evaluate SSA’s compliance with DCIA. To
     accomplish this objective, we:

          �	 Reviewed the DCIA, SSA’s Program Operations Manual System and
             other SSA polices concerning debt management.

          �	 Interviewed personnel at SSA Headquarters in Baltimore, Maryland.
             Also interviewed staff and examined case files at SSA field offices in
             Frederick, Essex and Columbia, Maryland and the Debt Collection
             Center in the Mid-Atlantic Program Service Center located in
             Philadelphia, Pennsylvania.

          � Reviewed SSA debt management reports.

     Treasury provided an audit program to all agencies participating in this audit.
     We modified this program based upon SSA’s debt structure. Most changes to
     the audit program were deletions of references to loans.

     We conducted our audit in accordance with generally accepted government
     auditing standards. Fieldwork was conducted from November 1998 through
     March 1999.




        PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 3
                                                                                       ATTACHMENT


Audit Results

Finding 1	 Progress Has Been Made Toward Implementing the
           Provisions of the DCIA

                 SSA is working toward meeting the objectives put forth by the DCIA which

                 are to (1) maximize collections of delinquent debts owed to the

                 Government and (2) reduce losses arising from inadequate debt

                 management activities.


                 Public Law 104-134 section 31001 (a) (1)(B) (b) (1) states the first

                 purpose of DCIA is “. . . to maximize collections of delinquent debts owed

                 to the Government by ensuring quick action to enforce recovery of debts

                 and the use of all appropriate collection tools.”


                 For example, SSA has implemented the ECO system to identify and

                 transfer delinquent debts to Treasury’s FMS. As a result, the

                 November 12,1998 ECO status report showed that $531 million4 of

                 delinquent debt had been transferred to FMS for collection. However, the

                 audit identified other areas where improvements could be made.



Finding 2 All Delinquent Debts Are Not Being Sent To FMS

                 Delinquent debts are not always referred to Treasury for collection. We
                 reviewed 204 overpayment cases. Of the overpayment cases reviewed,
                 200 cases were in proper collection status5. However, we found 3 cases
                 that should be have been referred to FMS for collection and one case that
                 should have been internally offset against future payments. In these
                 3 cases, all of the recipients’review and appeal rights had been
                 exhausted, and 180 days had past since recipients’rights to appeals had
                 been exhausted.

                 On May 30, 1997, SSA requested designation as a debt collection center
                 from Treasury. Status as a debt collection center exempts an agency
                 from the requirement to transfer debt over 180 days delinquent to
4
    The total amount of SSA outstanding receivables as of November 18, 1998 was $4,725 million.
5
  The collection status for these cases were determined as: (A) SSA is currently collecting the debt,
(B) debt has been fully collected, (C) repayment agreement made with SSA, (D) debt was referred to
FMS, (F) debtor in “due process”, (G) debt to be written-off, (H) debt waived, (I) not a overpayment, and
(J) miscellaneous.


              PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 4
                                                                                       ATTACHMENT

                Treasury. However, Treasury has not yet designated SSA as a debt
                collection center.

                As a result of the four cases cited previously, SSA should have referred
                an additional $11,800 of debt to FMS for further collection activity and
                $5,597 should have been offset against future payments.

Finding 3	 DCIA Tool Not Incorporated Into SSA’s Debt Management
           Program

                SSA has not incorporated the application of interest into its debt
                management program. With some exceptions,6 DCIA allows SSA to apply
                interest to delinquent debt.

                Section 204(f)(1) of the Social Security Act states,

                    “. . . with respect to any delinquent amount, the Commissioner of
                   Social Security may use collection practices described in sections
                   3711(e), 3716, 3717, and 3718 of title 31, United States Code (U.S.C.),
                   and in section 5514 title 5, U.S.C., as in effect immediately after the
                   enactment of the Debt Collection Improvement Act of 1996.”

                31 U.S.C. Section 3717 (a) states,

                    “. . . The head of an executive, judicial or legislative Agency shall
                   charge a minimum annual rate of interest on an outstanding debt on a
                   United States Government claim owed by a person that is equal to the
                   average investment rate for the Treasury tax and loan accounts of the
                   12-month period ending on September 30 of each year, rounded to the
                   nearest whole percentage point.”

                As a result of not applying interest to the applicable delinquent debts, the
                Government is losing potential revenue on delinquent debts. Because of
                the limited scope of this audit, we did not determine the cause of this




6
 For example, interest cannot be applied to Title II debts occurring when the debtor is under the age of
18.


            PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 5
                                                                    ATTACHMENT

         problem or the significance of lost interest revenue to the Government.
         However, SSA informed us that it is working on incorporating this tool into
         its debt management program.


Conclusion and Recommendations

         Although progress has been made, SSA can improve its implementation
         of DCIA. In a separate report, we will recommend that SSA:

         1. Improve the transfer of delinquent debts to FMS.

         2.	 Incorporate the application of interest into its debt management
             program.




       PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 6
                                                                             ATTACHMENT




                                                                                Appendix 1

SSA’s COMMENTARY
The following are SSA’s comments to this report in their entirety.


    SOCIAL SECURITY ADMINISTRATION’S COMMENTS ON THE

        OFFICE OF THE INSPECTOR GENERAL'S REPORT

 "PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY REVIEW

            OF SSA’S NON-TAX DELINQUENT DEBT"


Comments on Finding 1-"Progress has been made Toward Implementing
the Provisions of the DCIA"

       We believe that finding 1 should provide a more complete description of
       what SSA has already done and what it plans to do in order to improve its
       debt management program.

       In addition to implementing the ECO system, SSA has successfully
       completed four other major debt collection initiatives in the 1990s. In 1992,
       SSA began reporting its delinquent title II debts to the Internal Revenue
       Service for tax refund offset (TRO). In 1995 and again in 1998, SSA
       expanded its TRO program to include additional groups of delinquent
       debts; i.e., debts that are delinquent but not yet written off and title XVI
       debts. In 1998, SSA began reporting its delinquent title II debts to credit
       repositories (Equifax and Trans Union) as a way of influencing debtors to
       repay their debts. Also in 1998, SSA began using administrative offset (of
       Federal payments other than tax refunds) to collect delinquent title II
       debts.

       Currently, SSA is focusing its debt collection improvement efforts on two
       tools that are expected to yield direct collections. The first tool,
       cross-program recovery, will enable SSA to collect title XVI debts owed by
       former recipients from any title II benefits to which they are entitled. The
       other tool, administrative wage garnishment, will enable SSA to collect
       delinquent debts from the wages of former title II beneficiaries and former
       title XVI recipients. SSA then plans to implement the remaining debt
       collection tools-interest charging, Federal salary offset, and private
       collection agencies.



        PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 7
                                                                           ATTACHMENT




                                                                               Appendix 1

SSA’s COMMENTARY (continued)
Comments on Finding 2 --"All Delinquent Debts Are Not Being Sent to FMS"

       Finding 2 confuses two major debt collection programs created by DCIA.
       The two programs at issue are the Treasury Offset Program (TOP) and
       cross servicing. They are separate and distinct programs with different
       legal provisions, regulations and systems formats.

       TOP enables SSA and other Federal agencies to collect delinquent debts
       via the offset of Federal payments-most notably tax refunds but also other
       payments such as vendor/miscellaneous payments. SSA has participated
       in TOP since its first year of operation in 1998. Prior to TOP, SSA had
       participated in its predecessor, the Tax Refund Offset program, since
       1992. OIG found that SSA did not send to FMS for collection via TOP 3
       out of 204 cases it reviewed. In the three cases, it appears that human
       error, not any defects in SSA's system for controlling TOP cases,
       prevented the cases from being selected for TOP. Accordingly, we believe
       that the third paragraph of finding 2 should be reversed with the second
       paragraph. This will make clear to the reader that the $11,800 in debt that
       should have been referred to Treasury was in relation to TOP, and not to
       cross servicing.

       Cross servicing is a program under which FMS acts as a collection agency
       for recovering debts. In this program, FMS takes several collection
       actions, including sending letters requesting repayment from debtors and
       reporting debtors to private collection agencies. The Secretary of the
       Treasury can exempt agencies from participating in cross servicing for
       various reasons, such as when agencies are designated by the Secretary
       to be a debt collection center for purposes of collecting their own debts.

       In accordance with Treasury's guidelines and as stated by OIG in finding
       2, SSA requested to be designated as a debt collection center on
       May 30, 1997 for purposes of collecting its own debts. That application is
       still pending. If the ultimate decision is to not grant SSA debt collection
       center status, SSA plans to work with FMS to develop a referral process
       for cases where referral for cross servicing is practical and to seek
       exemption under the statute where it would not be practical.




        PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 8
                                                                             ATTACHMENT




                                                                                 Appendix 1

SSA’s COMMENTARY (continued)
Comments on Finding 3--"DCIA Tool Not Incorporated Into SSA's Debt
Management Program"

       As noted under our response to finding 1, SSA agrees that the application
       of interest is an important tool, and we would note that it is included in the
       Agency's 5-year Systems Plan.




        PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 9
                                                                       ATTACHMENT




                                                                          Appendix 2

MAJOR CONRIBUTORS TO THIS REPORT
The Office of Audit, Financial Management Audits Team in Baltimore prepared this
audit report, under the direction of Shirley E. Todd, Acting Director. Audit staff
included:

        Fred Nordhoff, Audit Manager

        Phillip Rogofsky, Auditor in Charge

        John Beacham, Senior Auditor

        Glenn E. Lee, Auditor

        Katherine Baker, Auditor

        Cheryl Robinson, Writer/Editor



Additional assistance from:


        Rick Berlinrut, Senior Auditor




          PCIE REVIEW OF SSA’S NON-TAX DELINQUENT DEBT Page 10
                                                                             APPENDIX B




 MAJOR CONTRIBUTORS TO THIS REPORT


The Office of Audit, Financial Management Audits Team in Baltimore prepared this
audit report, under the direction of Shirley E. Todd, Acting Division Director. Audit staff
included:

        Fred Nordhoff, Audit Manager

        Phillip Rogofsky, Auditor in Charge

        John Beacham, Senior Auditor

        Glenn E. Lee, Auditor

        Katherine Baker, Auditor

        Cheryl Robinson, Writer/Editor



Additional assistance from:


         Rick Berlinrut, Senior Auditor
                        APPENDIX C





SSA ORGANIZATIONAL CHART

